                                       SOCIAL SECURITY

MEMORANDUM
Date:   April 16, 2004                                                     Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Supplemental Security Income Overpayments (A-01-04-24022)



        The attached final report presents the results of our audit. Our objective was to assess
        the Social Security Administration’s efforts to identify, prevent, and recover
        Supplemental Security Income overpayments.

        Please provide within 60 days a corrective action plan that addresses our
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     SUPPLEMENTAL SECURITY
      INCOME OVERPAYMENTS


     April 2004   A-01-04-24022




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE

Our objective was to assess the Social Security Administration’s (SSA) efforts to
identify, prevent, and recover Supplemental Security Income (SSI) overpayments.

BACKGROUND

The SSI program provides a minimum level of income to financially needy individuals
who are aged, blind or disabled. Since individuals’ income, resources and living
arrangements may change often, SSA is required to frequently reassess and verify
recipients’ eligibility and payment amounts. Therefore, the SSI program is prone to
overpayments.

RESULTS OF REVIEW

According to SSA, between Fiscal Years 1996 and 2002, $11.6 billion in SSI
overpayments was subject to recovery efforts. Of this amount, SSA collected
$4.5 billion, deemed $2.3 billion uncollectible, waived $1.0 billion, and continued to
pursue recovery of $3.8 billion at the end of Fiscal Year 2002.

To strengthen SSA’s overpayment recovery efforts, additional collection tools were
authorized through the Foster Care Independence Act of 1999. The Agency is
considering or developing the tools authorized through this legislation that have not yet
been implemented—such as Federal salary offset, charging interest, and using private
collection agencies. These collection tools may assist SSA in reducing overpayments in
the SSI program—such as the $71.5 million we estimated the Agency was unsuccessful
in recovering from fugitives based on a September 2003 Office of the Inspector General
audit.

CONCLUSION AND RECOMMENDATION

SSA has made significant efforts to identify, prevent, and recover SSI overpayments
over the past several years. To assist the Agency in achieving its strategic objective of
improving debt management, we recommend that SSA continue to evaluate the
recovery tools that have not yet been implemented, but which were authorized through
legislation.

AGENCY COMMENTS

SSA agreed with our recommendation.




Supplemental Security Income Overpayments (A-01-04-24022)
                                                                     Table of Contents
                                                                                                               Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Overpayment Identification and Prevention Activities..............................................3

        Legislation Impacting SSI Eligibility ..............................................................3
        Computer Data Matches...............................................................................4
        Redeterminations .........................................................................................5
        Continuing Disability Reviews.......................................................................6
        Cooperative Disability Investigations ............................................................7
        Netting Excess Payments Against Additional Amounts Due.........................7
        Administrative Sanctions and Penalties........................................................7
        Overpayment Identification and Prevention Pilots ........................................8

Overpayment Recovery Activities .........................................................................10

        Overpayment Recovery from Current Recipients .......................................11
        Overpayment Recovery from Former Recipients........................................11
        Overpayment Recovery Tools SSA is Considering or Developing .............13

CONCLUSION AND RECOMMENDATION .........................................................15

APPENDICES

APPENDIX A – Scope, Methodology and Sampling Results

APPENDIX B – Prior Reports Related to SSI Overpayments

APPENDIX C – Classification of Overpayments and Payment Accuracy

APPENDIX D – Legislation Impacting SSI Eligibility

APPENDIX E – Data Matches to Identify and Prevent Overpayments

APPENDIX F – Legislation Impacting SSI Overpayments

APPENDIX G – Agency Comments

APPENDIX H – OIG Contact and Staff Acknowledgments



Supplemental Security Income Overpayments (A-01-04-24022)
                                                               Acronyms
CDI              Cooperative Disability Investigations

CDR              Continuing Disability Review

CFR              Code of Federal Regulations

FCIA             Foster Care Independence Act of 1999

FY               Fiscal Year

GAO              General Accounting Office

OASDI            Old-Age, Survivors and Disability Insurance

OIG              Office of the Inspector General

OMB              Office of Management and Budget

SSA              Social Security Administration

SSI              Supplemental Security Income

U.S.             United States

U.S.C.           United States Code




Supplemental Security Income Overpayments (A-01-04-24022)
                                                                           Introduction
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) efforts to
identify, prevent, and recover Supplemental Security Income (SSI) overpayments.1

BACKGROUND

Title XVI of the Social Security Act established the SSI program in 1972. SSI is a
nationwide Federal cash assistance program administered by SSA that provides a
minimum level of income to financially needy individuals who are aged, blind or
disabled.2 The program’s means-tested nature requires that individuals’ income,
resources and living arrangements be assessed on a monthly basis for purposes of
determining eligibility and payment amounts. In Fiscal Year (FY) 2003, SSA paid
approximately $33.2 billion in SSI payments to about 6.9 million recipients.

SSA relies heavily on recipient self-disclosure of all financial resources, as well as
computer matching with other Federal and State agencies, to ensure payment
accuracy. Since individuals’ income, resources and living arrangements may change
often, SSA is required to frequently reassess and verify recipients’ eligibility and
payment amounts. Therefore, the SSI program is prone to overpayments.3 According
to SSA, the majority of SSI overpayments result from recipients’ failure to report
changes in income (such as wages) and resources (such as bank accounts).4

SSA’S RESPONSIBILITIES

In August 2001, the Office of Management and Budget (OMB) published The
President’s Management Agenda for FY 2002, which included a Governmentwide



1
 We expect to issue an audit report in Fiscal Year 2004, Overpayments in the Old-Age, Survivors and
Disability Insurance Program (A-01-04-24023), regarding SSA’s efforts to identify, prevent, and recover
Old-Age, Survivors and Disability Insurance overpayments. In addition, we are currently conducting an
audit entitled, Undetected Overpayments in the Social Security Administration’s Disability Programs
(A-01-04-24065). We expect to issue this report in Fiscal Year 2005. (For prior reports related to SSI
overpayments issued by the Office of the Inspector General and the General Accounting Office, see
Appendix B.)
2
 Section 1601, et seq. of the Social Security Act, as amended (42 U.S.C. § 1381, et seq.). See also
20 CFR § 416.110.
3
 SSI overpayments also result from disability cessations. Specifically, SSI overpayments may result
when individuals found to be no longer disabled elect for continuation of payments during an appeal.
4
 SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal Year 2003,
page 38.


Supplemental Security Income Overpayments (A-01-04-24022)                                                 1
initiative for improving financial performance. In November 2002, Congress enacted the
Improper Payments Information Act of 2002 which requires Federal agencies—
including SSA—to report annually on the extent of erroneous payments within their
programs and the actions being taken to reduce erroneous payments.5 OMB issued
guidance in May 2003 to assist in the implementation of this law.6

Under the Improper Payments Information Act of 2002 and subsequent OMB guidance,
SSA is required to estimate and report the annual amount of improper payments to the
President and Congress with a progress report on actions to reduce erroneous
payments. (For additional information regarding OMB’s guidance as well as information
about SSA’s payment accuracy rates, see Appendix C.)




5
    Section 2 of Public Law No. 107-300, enacted November 26, 2002.
6
    OMB, Memorandum for Heads of Executive Departments and Agencies (M-03-13), May 21, 2003.


Supplemental Security Income Overpayments (A-01-04-24022)                                      2
                                                     Results of Review
SSA has made significant efforts over the past several years to identify, prevent, and
recover SSI overpayments. In addition, the Agency is considering or developing
collection tools that were authorized through legislation but have not yet been
implemented. These additional collection tools may assist SSA in reducing
overpayments in the SSI program—such as the $71.5 million we estimated SSA was
unsuccessful in recovering from fugitives based on our September 2003 audit.7

According to SSA, between FYs 1996 and 2002, $11.6 billion in SSI overpayments was
subject to recovery efforts. Of this amount, SSA collected $4.5 billion, deemed
$2.3 billion uncollectible, waived $1.0 billion, and continued to pursue recovery of
$3.8 billion at the end of FY 2002. If the Agency had decreased the amount of
overpayments waived between FYs 1996 and 2002 by 10 percent, SSA could have
saved approximately $100 million. In addition, savings could increase by approximately
$230 million if the Agency were to recover 10 percent of the $2.3 billion in SSI
overpayments deemed uncollectible between FYs 1996 and 2002.

OVERPAYMENT IDENTIFICATION AND PREVENTION ACTIVITIES
SSA has several initiatives to better identify and prevent overpayments in the SSI
program that should assist the Agency in achieving its strategic objective of preventing
fraudulent and erroneous payments and improving debt management.8 Specifically,
SSA
         obtained legislative authority that impacted SSI eligibility;
         increased the number of computer data matches, redeterminations, and
          continuing disability reviews (CDR) performed;
         formed cooperative disability investigations (CDI) units;
         automated the netting of excess payments against additional amounts due; and
         imposed administrative sanctions and penalties.

In addition, SSA is testing additional overpayment identification and prevention tools
and is developing several legislative proposals to simplify the SSI program.

LEGISLATION IMPACTING SSI ELIGIBILITY

Since 1996, legislation has been passed that impacted eligibility for SSI payments. For
example, Congress enacted the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996, which prohibited SSI payments to fugitive felons and


7
 See Appendix A for sampling methodology based on data from our September 2003 audit, Assessment
of the Supplemental Security Income Fugitive Felon Project (A-01-03-23070).
8
    SSA, Strategic Plan, 2003-2008, page 21.


Supplemental Security Income Overpayments (A-01-04-24022)                                      3
parole/probation violators.9 The Foster Care Independence Act of 1999 (FCIA)
established additional eligibility requirements for SSI payments.10 For example, assets
held in trusts are considered countable resources for SSI purposes. Additionally,
individuals who dispose of resources for less than fair market value may be ineligible for
SSI payments for a maximum period of 36 months. (For a list of legislation impacting
SSI eligibility, see Appendix D.)

COMPUTER DATA MATCHES

SSA conducts several computer matches with Federal and State agencies to detect and
verify unreported (or underreported) income and resources. Between the years 1998
and 2001, the Agency increased data matching in areas it had identified as most
vulnerable to overpayment. Examples of some of these data matches are discussed
below.

     In 1998, SSA began running quarterly matches against wage data maintained by the
      Office of Child Support Enforcement’s National Directory of New Hires database—a
      comprehensive source of unemployment insurance, wage, and new hire data. In
      addition to the quarterly matches, SSA implemented online access to the database
      for use in all its field offices in calendar year 2001 to assist in verifying applicant
      eligibility in the initial claims process. SSA estimated the match will result in
      approximately $200 million in overpayment preventions and recoveries per year.11
     SSA has agreements with many Federal and State agencies to identify SSI
      recipients who are fugitive felons or parole/probation violators. As of
      November 2002, SSA received fugitive and parole/probation information for
      37 States (including the District of Columbia).12 In a prior report, we estimated that
      approximately $236.5 million in overpayments was paid to fugitive felons and subject
      to recovery efforts.13 In addition, SSA prevented about $74.1 million in
      overpayments by withholding the continuing SSI payments to fugitives while their
      warrants remained outstanding.




9
    Public Law No. 104-193, enacted August 22, 1996.
10
     Public Law No. 106-169, enacted December 14, 1999.
11
 GAO, Supplemental Security Income: Progress Made in Detecting and Recovering Overpayments, but
Management Attention Should Continue (GAO-02-849), September 2002.
12
   For the remaining 14 States, 10 States had agreements to provide fugitive data to SSA; 3 States were
in negotiations with SSA to establish reporting agreements; and 1 State was unable to provide data to
SSA because State laws prohibit the release of information to non-law enforcement agencies.
13
  OIG, Assessment of the Supplemental Security Income Fugitive Felon Project (A-01-03-23070),
September 2003.


Supplemental Security Income Overpayments (A-01-04-24022)                                                 4
     SSA receives reports from prison facilities representing 99 percent of the total prison
      population. According to SSA, the Agency suspended SSI payments to
      53,987 prisoners in FY 2001, resulting in an estimated $424 million in overpayments
      identified or prevented.14
     SSA conducts monthly matches against records maintained by the Centers for
      Medicare and Medicaid Services to detect nursing home admissions. According to
      an October 2000 SSA Office of Quality Assurance and Performance Assessment
      report, the Agency detected approximately 72,000 nursing home admissions in
      FY 1999—resulting in about $27 million in overpayments prevented or recovered.

For a list of additional computer matches conducted by SSA, see Appendix E.

REDETERMINATIONS

SSA conducts redeterminations—periodic reviews of non-medical factors of eligibility
(for example, income and resources)—to ensure recipients remain eligible for SSI
payments.15 Scheduled redeterminations are selected annually or once every 6 years,
depending on the likelihood of payment error. Unscheduled redeterminations are also
completed (as needed) when SSI recipients report—or SSA discovers—certain changes
in circumstances that could affect continuing SSI payment amounts.16
According to SSA, redeterminations are one of the Agency’s most powerful tools in
identifying and preventing SSI overpayments.17

The following table shows the number of redeterminations completed between
FYs 1996 and 2002 and the amount of SSI overpayments identified each year.

           Fiscal          Number of           Redeterminations              Overpayments
            Year           Recipients            Completed18                  Identified19
           1996            6.6 million            1.8 million                  $0.9 billion
           1997            6.6 million            1.8 million                  $1.1 billion
           1998            6.6 million            1.9 million                  $1.3 billion

14
     SSA, SSI Corrective Action Plan, June 2002, page 8.
15
     20 CFR § 416.204.
16
     SSA, Annual Report of the Supplemental Security Income Program, May 2003, page 82.
17
  SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal Year
2003, page 38.
18
  SSA, Annual Report of the Supplemental Security Income Program, May 2003, page 82. In addition to
redeterminations, other factors such as CDRs and computer matches contribute to overpayment dollars
identified each year. Therefore, the overpayment dollars presented in the table were not solely identified
through redeterminations.
19
  Benefit overpayment statistics for FYs 1996 to 2002 provided by SSA’s Office of Finance, Assessment
and Management. The total of $9.8 billion represents SSI overpayments identified between FYs 1996
and 2002 (net of reestablished debt and adjustments).


Supplemental Security Income Overpayments (A-01-04-24022)                                                5
         Fiscal         Number of             Redeterminations              Overpayments
          Year          Recipients              Completed18                  Identified19
         1999            6.6 million             2.1 million                  $1.6 billion
         2000            6.6 million             2.2 million                  $1.5 billion
         2001            6.7 million             2.3 million                  $1.7 billion
         2002            6.8 million             2.3 million                  $1.7 billion
                     Total                      14.4 million                 $9.8 billion
In FYs 1998 and 1999, the Agency revised its redetermination process to better target
cases most likely to involve payment changes. In 2002, the Commissioner budgeted an
additional $21 million to increase the number of redeterminations performed on cases
prone to incorrect payments. According to SSA, approximately 1 out of every 3 SSI
recipients had his or her SSI eligibility reviewed at some time during 2002.20

CONTINUING DISABILITY REVIEWS

SSA conducts CDRs to assess whether individuals remain medically eligible for SSI
payments. The frequency of medical CDRs is dependent upon SSA’s assessment of
the likelihood of medical improvement. Specifically, individuals with a significant
potential for medical improvement are selected for review within the first 6 to 18 months
of eligibility. Individuals with a lower probability of medical improvement are reviewed
every 3 years. Finally, individuals with no expectation of medical improvement are
scheduled for review every 7 years.21

SSA processed CDRs under a 7-year plan originally issued in August 1996 (and revised
several times subsequently) that expanded the number of CDRs that would be
conducted under the SSI program. To cover the cost of CDRs, Congress provided the
Agency with special funding for FYs 1996 through 2002.22 SSA reported to have
conducted 830,970 SSI CDRs in 2002.23 The Agency estimated the ratio of program
savings to administrative costs for the CDRs performed in FY 2002 to be approximately
$9.50 to $1.00.24

20
  SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal Year
2003, page 38.
21
  Section 1614(a)(3)(H) of the Social Security Act, as amended (42 U.S.C. § 1382c(a)(3)(H)) requires
periodic reviews of eligibility for SSI payments based on disability or blindness. See also
20 CFR § 416.990(d) for the frequency of CDRs.
22
 Section 103 of Public Law No. 104-121, enacted on March 29, 1996, provided special funding for
CDRs.
23
   This includes both full medical reviews and CDR mailers. SSA reported in its FY 2002 Annual Report
of Continuing Disability Reviews to have become current with all overdue CDRs in the SSI program at the
end of FY 2002. However, the Agency was unable to perform all CDRs scheduled in FY 2003. SSA
estimated it performed approximately 121,000 fewer CDRs than were scheduled (SSA, Performance and
Accountability Report Fiscal Year 2003, page 41).
24
  The ratio of program savings to administrative costs was for all SSA programs, not solely SSI. SSA,
Annual Report of Continuing Disability Reviews for FY 2002.


Supplemental Security Income Overpayments (A-01-04-24022)                                               6
COOPERATIVE DISABILITY INVESTIGATIONS

CDI units provide investigative support to prevent payments on disability cases involving
fraud. CDI units are composed of special agents from the Office of the Inspector
General’s (OIG) Office of Investigations and personnel from SSA’s Office of Operations,
State Disability Determination Services, and State or local law enforcement agencies.
Evidence gathered by CDI units may be used in disability determinations and in the
criminal prosecutions of individuals who commit fraud. As of September 2003, 18 CDI
units were established and plans were underway to add more on an annual basis,
depending on availability of funds.25 In FY 2003, the CDI project resulted in estimated
savings of approximately $100 million to SSA programs and $59 million to non-SSA
programs.26

NETTING EXCESS PAYMENTS AGAINST ADDITIONAL AMOUNTS DUE

SSA nets any excess payments on an individual’s record against any additional
payment amounts due. Once this netting process is complete and any resulting
overpayment is determined, recovery is pursued. For example, if an individual received
an excess payment of $400 for some months in 2002 and was due $200 for some
months in 2001, the Agency would automatically net these SSI amounts and pursue
recovery of the resulting $200 overpayment. The Agency automated this netting
process in September 2002. According to SSA, this netting process resulted in
estimated savings of approximately $99.9 million in FY 2003.

ADMINISTRATIVE SANCTIONS AND PENALTIES

Section 207 of the FCIA authorized SSA under certain circumstances to impose
administrative sanctions—nonpayment of SSI payments for 6, 12, or 24 months—
against “[a]ny person who makes, or causes to be made, a statement or representation
of a material fact for use in determining any initial or continuity right to or the amount
of…benefits or payments under title XVI...”27 For example, SSA may impose a sanction
if an SSI recipient alleges non-receipt of a payment but later cashes both the original
and replacement checks. However, in September 2003, we reported that field office
staff were not consistently imposing administrative sanctions against individuals with
double check negotiations.28


25
     OIG, Semiannual Report to Congress, April 1, 2003 — September 30, 2003, page 8.
26
  OIG, Semiannual Report to Congress, April 1, 2003 — September 30, 2003, page 8. Non-SSA
programs consist of programs such as Medicaid and workers’ compensation.
27
  Section 1129A of the Social Security Act, as amended (42 U.S.C. § 1320a-8a). Section 1129A also
applies to monthly insurance benefits under Title II.
28
  OIG, Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010),
September 2003. In addition, in GAO’s September 2002 report, Supplemental Security Income: Progress
Made in Detecting and Recovering Overpayments, but Management Attention Should Continue
(GAO-02-849), GAO found that administrative sanctions may be under-used. As of July 2002, SSA had
imposed administrative sanctions on 60 SSI recipients.


Supplemental Security Income Overpayments (A-01-04-24022)                                           7
In response to our audit report, SSA agreed with our recommendation to ensure
administrative sanctions are imposed in an appropriate and consistent manner against
individuals with multiple double check negotiations. The Agency issued instructions in
October 2002 reminding staff to use the administrative sanction provisions whenever
appropriate. In addition, the Agency is currently reviewing the administrative sanction
process to ensure it is implemented consistently among regions.

SSA may also assess penalties when individuals fail to report events or changes that
may affect SSI eligibility or payment amounts.29 Penalty amounts are $25 for the first
failure, $50 for the second failure, and $100 for the third and subsequent failures.30
According to SSA, “[p]enalties may help encourage recipients to comply with their
reporting responsibilities, thereby reducing overpayments.”31 However, according to the
General Accounting Office, administrative penalties remained under-used in the SSI
program.32

OVERPAYMENT IDENTIFICATION AND PREVENTION PILOTS

In addition to the current tools used by SSA, the Agency is also pursuing
implementation of new tools to help identify and prevent SSI overpayments. Examples
of some pilots (or testing) conducted by SSA are discussed below.

                        In June 2003, SSA began a pilot which requires applicants filing for
Proof of Identity       disability payments in certain field offices to present proof of
                        identity.33 According to SSA, “This process will strengthen the
                        integrity of the disability claims process by helping to ensure that
the individual presenting himself or herself for examination is the same individual who
filed the original disability application.”34 Generally, individuals filing for SSI payments in
participating field offices must allow SSA to take their photographs and include them in
the disability claims files. Failure to cooperate may result in denial of SSI disability
payments. In addition to the initial claims process, the photographs would also be used
to verify a claimant’s identity during redeterminations and CDRs.




29
     20 CFR § 416.722.
30
     20 CFR § 416.724.
31
     SSA, Program Operations Manual System, section SI 02301.100.
32
  GAO Testimony, Supplemental Security Income: Status of Efforts to Improve Overpayment Detection
and Recovery (GAO-02-962T), July 25, 2002.
33
     Currently, SSA does require applicants to present proof of identity when applying for SSI payments.
34
     SSA, Policy Instruction EM-03053, section A, June 1, 2003.



Supplemental Security Income Overpayments (A-01-04-24022)                                                  8
                       In May 2003, SSA began a pilot to test the effectiveness of
 Monthly Wage          reporting wages by telephone. Approximately 4,000 individuals
 Reporting             were selected to report their wages to SSA each month by dialing
                       a toll-free number. According to SSA, a conservative estimate of
full implementation of a mandatory monthly wage reporting system would yield at least
$80 million in overpayment preventions each year.35

                        SSA is testing processes to access the records of financial
Accessing               institutions and credit bureaus to detect unreported income or
Financial               resources of SSI applicants and recipients. In September 2003,
Records                 the Agency revised its regulations to implement the authority
                        granted by section 213 of the FCIA to access the records of
financial institutions and had plans to begin testing the process.36 In October 2003,
SSA began a pilot to evaluate the use of reports obtained from credit bureaus.

                      In September 1999, SSA contracted with the National Association
Electronic Death      for Public Health Statistics and Information Systems, an
Registration          association of State vital records directors and registrars, to
                      develop standards and guidelines for a proposed nationwide
system of electronic death registration. This system would enable SSA to receive death
reports within 5 days of death and 24 hours of receipt in the State Bureau of Vital
Statistics. As of October 2003, this project was still in the development stage, but it is
one of several OMB e-Government initiatives.37

                       Currently, SSA considers wages on a monthly basis when
Averaging              determining SSI eligibility and payment amounts. The Agency is
Wages                  analyzing the option of averaging the wages of SSI recipients over
                       a calendar year. According to SSA, a previous simulation of this
method found that most recipients who received continuous payments would
experience little or no change in the annual amount of payments.38




35
  SSA, SSI Corrective Action Plan, June 2002, page 16. According to SSA, an average of only
1,000 individuals reported their wages to the Agency each month during the pilot.
36
  Section 1631(e)(1)(B)(ii) of the Social Security Act, as amended (42 U.S.C. § 1383(e)(1)(B)(ii)). Final
rules to assess the records of financial institutions were issued in the Federal Register, Vol. 68,
No. 176 on September 11, 2003 and were effective October 14, 2003.
37
  In August 2001, OMB published The President’s Management Agenda for FY 2002, which included a
Governmentwide initiative for improving electronic Government (or e-Government). E-Government is
expected to improve the use of the Internet to make it easier for citizens and businesses to interact with
the Government.
38
     SSA, SSI Corrective Action Plan, June 2002, page 22.



Supplemental Security Income Overpayments (A-01-04-24022)                                                    9
                       Program requirements for initial and continuing SSI eligibility are
 Legislative           complex, and as a result, contribute to SSI overpayments. SSA
 Proposals             has been developing several proposals to simplify the SSI
                       program. Specifically, the President’s budget for FY 2004
contained several legislative proposals in relation to income for purposes of determining
SSI eligibility and payment amounts.39 The Agency also expects to develop legislative
proposals to make reporting requirements less burdensome to recipients and less costly
for SSA to administer. Simplifying the SSI program should improve the accuracy of SSI
payments.

OVERPAYMENT RECOVERY ACTIVITIES

SSA has made significant efforts over the past several years to recover SSI
overpayments. Specifically, the Agency implemented several new collection tools and
expects to implement additional tools in the future.

Between FYs 1996 and 2002, $11.6 billion in SSI overpayments was subject to
recovery efforts.40 The disposition of these overpayments at the end of FY 2002 is
depicted in the chart below.



                           Disposition of SSI Overpayments Between
                                       FYs 1996 and 2002
                        Remained
                       Recoverable
                                                           Recovered
                        $3.8 billion
                                                           $4.5 billion
                          (33%)
                                                             (39%)


                                Deemed
                              Uncollectible           Waived
                               $2.3 billion          $1.0 billion
                                 (20%)                 (8%)



SSA acknowledges its stewardship responsibilities to improve debt management and
recover SSI overpayments.41 The Agency could realize additional savings to the SSI
program if SSA were to decrease the amount of overpayments that are waived or
39
     The President’s budget for FY 2005 also includes similar provisions to simplify the SSI program.
40
  The $11.6 billion represents $9.8 billion in SSI overpayments identified between FYs 1996 and
2002 (net of reestablished debt and adjustments), plus FY 1995 SSI overpayments totaling $1.8 billion
brought forward to FY 1996.
41
     SSA, Performance and Accountability Report Fiscal Year 2003, page 44.



Supplemental Security Income Overpayments (A-01-04-24022)                                               10
deemed uncollectible. 42 For example, if the Agency had waived 10 percent fewer
overpayments between FYs 1996 and 2002, SSA might have been able to recover
approximately $100 million. In addition, SSA could save approximately $230 million if
the Agency were to recover 10 percent of the $2.3 billion it deemed uncollectible
between FYs 1996 and 2002.43

OVERPAYMENT RECOVERY FROM CURRENT RECIPIENTS

When overpayments are established, SSA notifies the overpaid individuals and advises
them of their repayment obligations and appeal rights. If refunds are not received, SSA
may withhold a portion of the recipients’ current SSI payments until the overpayments
are fully recovered.44

In July 1999, SSA implemented a systems improvement to automatically identify
outstanding overpayments from prior SSI eligibility periods to pursue recovery from
current SSI payments. In a previous audit, however, we found that the Agency did not
initiate recovery of all prior SSI overpayments.45 Specifically, we estimated that SSA did
not initiate recovery of approximately $93.5 million in SSI overpayments to about
35,138 recipients as of February 2000. In response to our report, SSA agreed with our
recommendations to ensure that recovery of prior overpayments is pursued.

OVERPAYMENT RECOVERY FROM FORMER RECIPIENTS

To strengthen SSA’s ability to recover SSI overpayments owed by former recipients,
additional collection tools have been authorized through legislation. These additional
tools are discussed below.




42
   Not all SSI overpayments are subject to SSA’s recovery tools. Generally, SSA may relieve recipients
from their obligations to repay SSI overpayments if the individuals were not at fault in causing the
overpayments and certain criteria are met. (SSA, Program Operations Manual System, section
SI 02260.001 A1.) Between FYs 1996 and 2002, SSA waived approximately $1.0 billion in SSI
overpayments. The OIG expects to issue an audit report in FY 2004—The Social Security
Administration’s Controls Over the Title XVI Waiver Process (A-06-03-13077)—to evaluate the Agency’s
controls over the SSI waiver process and to assess the appropriateness of overpayment waiver
decisions.
43
  To improve the recovery of SSI overpayments, SSA has an initiative in place to identify individuals
whose SSI overpayments were deemed uncollectible and who are currently receiving SSI payments or
Old-Age, Survivors and Disability Insurance benefits. Once identified, action will be taken to recover the
overpayments (SSA, Performance and Accountability Report Fiscal Year 2003, page 22).
44
     SSA, Program Operations Manual System, section SI 02220.001.
45
 OIG, Controls Over Recording Supplemental Security Income Overpayments (A-01-00-10005),
May 2001.



Supplemental Security Income Overpayments (A-01-04-24022)                                                11
Tax Refund Offset

SSA began recovering delinquent SSI overpayments from former recipients by
offsetting their Federal tax refunds in January 1998.46 SSA reported that this initiative
yielded $217.6 million in additional overpayment recoveries between 1998 and 2001.
This included $145.4 million in actual tax refund offsets and another $72.2 million from
individuals who voluntarily repaid their overpayments to avoid the offset.47

Administrative Offset and Referral of Overpayments to Credit Bureaus

In February 2002, SSA began: 1) recovering delinquent SSI overpayments from former
recipients by reducing non-tax Federal payments due them; and 2) referring delinquent
SSI overpayments to credit bureaus.

Recovery from Representative Payees

Section 201 of the FCIA made representative payees liable for repayment of SSI
overpayments caused by payments to recipients after their deaths.48 SSA is evaluating
a project to establish overpayments on the Agency’s records to account for and collect
representative payee overpayments. Currently, these types of overpayments are
controlled manually and are not subject to SSA’s overpayment recovery tools.

Cross-Program Recovery

The Non-Citizen Benefit Clarification and Other Technical Amendments Act of
1998 gave SSA the authority to recover delinquent SSI overpayments from former
recipients by withholding a portion of their Old-Age, Survivors and Disability Insurance
(OASDI) benefits without first obtaining their consent.49 SSA implemented this tool—
referred to as mandatory cross-program recovery—in February 2002 and reported over
$78 million in overpayment recoveries since its inception. (For a list of legislation
impacting SSI overpayment recovery, see Appendix F.)




46
  The Agency was given the authority to implement this tool through Division B, Title VI, Section 2653 of
the Deficit Reduction Act of 1984 (Public Law No. 98-369), enacted July 18, 1984.
47
     SSA, SSI Corrective Action Plan, June 2002, page 10.
48
  A representative payee is an individual or organization who manages a recipient’s SSI payments. SSA
appoints representative payees when individuals are incapable of managing their own payments.
49
  Section 8 of Public Law No. 105-306, enacted October 28, 1998. Prior to enactment of this law, an
individual’s consent was required to recover delinquent SSI overpayments from OASDI benefits.



Supplemental Security Income Overpayments (A-01-04-24022)                                              12
OVERPAYMENT RECOVERY TOOLS SSA IS CONSIDERING OR DEVELOPING

For FY 2003, SSA created a new performance indicator to measure the amount of SSI
overpayments in collection arrangements, and began developing a scoring system that
prioritizes unresolved debts.50

In addition, the Agency is evaluating the use of new collection tools to improve the
recovery of overpayments owed by former recipients. According to SSA, the Agency
will focus on implementing tools that will yield the highest recovery rates or that can be
implemented rather quickly. Also, SSA will consider how easily the tools can be
integrated into its current debt collection program.51 These additional recovery tools—
granted through section 203 of the FCIA—are discussed below.

                     Federal salary offset is the direct collection of delinquent
Federal Salary       overpayments owed by Federal workers from their salaries.
Offset               According to SSA, the Agency is currently drafting regulations to
                     implement this collection tool. The number of Federal employees
subject to Federal salary offset is expected to be very small (less than 5,000) according
to SSA.52

                      The FCIA authorized private collection agencies to pursue
Private Collection recovery of delinquent overpayments on behalf of SSA. The
Agencies              Agency intends to use the Department of the Treasury’s cross-
                      servicing program to act as a debt collector for SSA. In
June 2000, SSA testified before Congress that the Agency had been working with the
Department of the Treasury on the program.53 According to SSA, the Department of the
Treasury is developing software for the cross-servicing program and expects to
implement the software in FY 2005.

In a prior audit, we identified 48 fugitives who were unable or unwilling to repay
$281,922 in SSI overpayments as of May 2003.54 Projecting these results to the
population, we estimate that SSA was unsuccessful in recovering approximately

50
     SSA, Performance and Accountability Report Fiscal Year 2003, pages 22 and 45.
51
     SSA’s Key Initiative Plan and Schedule dated January 22, 2002, page 91.
52
     SSA’s Key Initiative Plan and Schedule dated January 22, 2002, page 100.
53
   On June 8, 2000, the Deputy Commissioner for Finance, Assessment and Management testified before
Congress, House Committee on Government Reform, Subcommittee on Government Management,
Information and Technology on implementation of the Debt Collection Improvement Act of 1996.
54
  OIG, Assessment of the Supplemental Security Income Fugitive Felon Project (A-01-03-23070),
September 2003. The OIG is also currently conducting a review—The Social Security Administration’s
Controls over Suspending Collection Efforts on Title XVI Overpayments (A-04-04-24029)—to evaluate
SSA’s controls over suspending collection efforts on SSI overpayments because recipients are unable or
unwilling to pay, cannot be located, or are out of the country. We expect to issue this report in FY 2004.



Supplemental Security Income Overpayments (A-01-04-24022)                                               13
$71.5 million in overpayments to about 12,251 fugitives. According to SSA, overpaid
individuals may perceive the Agency as being unable to enforce repayment.55 The
Department of the Treasury’s cross-servicing program may encourage individuals—
including these fugitives—to repay their overpayments to SSA.

                     Under an interest charging program, the Agency would charge
Charging             interest on delinquent SSI overpayments. SSA expects interest
Interest             charging will result in voluntary repayments by overpaid individuals
                     to avoid the interest. SSA has long-range plans to evaluate an
interest charging program. Original evaluation of the program had been scheduled for
2002, but as of October 2003, no specific implementation date had been set.

In addition to the tools authorized under the FCIA, section 31001(o) of the Debt
Collection Improvement Act of 199656 authorized SSA to collect delinquent
overpayments by garnishing the wages of State, local, public, and private sector
employees. SSA established new regulations to recover delinquent SSI overpayments
by administrative wage garnishment in December 2003. These regulations, effective
January 22, 2004, allow SSA to garnish up to 15 percent of employees’ wages until
overpayments are fully recovered.




55
     SSA’s Key Initiative Plan and Schedule dated January 22, 2002, page 90.
56
     Public Law No. 104-134; see also 31 U.S.C. 3720D.


Supplemental Security Income Overpayments (A-01-04-24022)                              14
                                                    Conclusion and
                                                   Recommendation
Overall, SSA has made significant efforts to identify, prevent, and recover SSI
overpayments over the past several years. In addition, the Agency is considering or
developing collection tools that were authorized through legislation but have not yet
been implemented. These additional collection tools may assist SSA in reducing
overpayments in the SSI program—such as the $71.5 million we estimated SSA was
unsuccessful in recovering from fugitives based on our September 2003 audit.

To assist SSA in achieving its strategic objective of improving debt management, we
recommend that SSA continue to evaluate the recovery tools that have not yet been
implemented, but which were authorized through legislation (such as Federal salary
offset, charging interest, and using private collection agencies).


AGENCY COMMENTS

SSA agreed with our recommendation. Specifically, SSA informed us the Agency would
continue to evaluate and prioritize the implementation schedule in the most cost-
effective manner for recovery tools not yet implemented.




Supplemental Security Income Overpayments (A-01-04-24022)                               15
                                         Appendices




Supplemental Security Income Overpayments (A-01-04-24022)
                                                                      Appendix A

Scope, Methodology and Sampling Results
AUDIT SCOPE AND METHODOLOGY
To accomplish our objective, we:

 Researched the Social Security Act and the Social Security Administration’s (SSA)
  regulations, policies and procedures related to Supplemental Security Income (SSI)
  overpayments.

 Obtained, from SSA, SSI overpayment statistics for Fiscal Years 1996 through 2002.

 Identified issues that occurred between 1996 and 2002 that could have caused
  increases or decreases in the number and amount of overpayments.

 Researched prior recommendations made by the Office of the Inspector General
  (OIG) and the General Accounting Office related to SSI overpayments to determine
  whether they had been implemented.

 Researched the different tools and techniques available to SSA to identify, prevent,
  and recover SSI overpayments.

 Researched the different causes of overpayments, including those inherent to the
  design of the SSI program that cannot be changed without legislation.

We conducted our audit between July and December 2003 in Boston, Massachusetts.
We relied on overpayment statistical data obtained from SSA to meet our audit
objective. We did not independently test or verify this information. Accordingly, we do
not express an opinion or any other degree of assurance as to its validity. The principal
entities audited were the Office of Income Security Programs under the Deputy
Commissioner for Disability and Income Security Programs and SSA field offices under
the Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards.

SAMPLING METHODOLOGY

In a prior audit issued in September 2003, Assessment of the Supplemental Security
Income Fugitive Felon Project (A-01-03-23070), we identified 48 fugitives in our sample
who were unable or unwilling to repay $281,923 in SSI overpayments as of May 2003.
For purposes of our current audit, we estimated: 1) the number of fugitives who were
unable or unwilling to repay their overpayments; and 2) the amount of SSI funds the
Agency was unsuccessful in recovering. (The sampling methodology used for our
fugitive audit is discussed below.)


Supplemental Security Income Overpayments (A-01-04-24022)                             A-1
We obtained an extract from the OIG, Office of Investigations’ Allegation and Case
Investigative System of 88,208 fugitives with Social Security numbers that verified
through SSA’s Enumeration Verification System. These 88,208 fugitives were identified
through January 28, 2003.

From SSA, we obtained Supplemental Security Record data for these 88,208 individuals
to determine whether SSI ineligibility occurred because of the outstanding warrants.
We separated the results into 2 groups, sampling 150 cases from each (for a total
sample size of 300 cases).

       Stratum A consisted of 51,456 individuals whose records did not reflect fugitive
        ineligibility (code N25), despite their warrants.
       Stratum B consisted of 36,752 individuals whose records reflected SSI ineligibility
        because of their outstanding warrants.

SAMPLING RESULTS
The following tables reflect our sample results and projections based on our prior audit.

                             Table 1 – Population and Sample Size
                                    Stratum A                  Stratum B            Total
Population size                          51,456                    36,752          88,208
Sample size                                  150                      150             300



Table 2 – SSI Overpayments to
Fugitives SSA Was Unsuccessful In                              Attribute       Dollars
Recovering
Stratum A Sample Results                                                   5      $ 25,051
Stratum B Sample Results                                              43         $256,871
Total Sample Results                                                  48         $281,922
Point Estimate                                                     12,251      $71,530,423
Projection lower limit                                              9,694      $51,810,454
Projection upper limit                                             14,808      $91,250,392
Note: All projections are at the 90-percent confident level.




Supplemental Security Income Overpayments (A-01-04-24022)                                    A-2
                                                                                Appendix B

Prior Reports Related to SSI Overpayments
The Office of the Inspector General (OIG) and the General Accounting Office (GAO)
have issued several reports related to overpayments in the Supplemental Security
Income (SSI) program. Some of these reports included recommendations with which
the Social Security Administration (SSA) either fully or partially agreed and took steps to
implement. These reports are presented in the table below.1

                                                           Fully Agreed/No
                        Report Title                                             Partially Agreed
                                                          Recommendations
    OIG, Assessment of the Supplemental Security
    Income Fugitive Felon Project (A-01-03-23370),               9
    September 2003
    OIG, Issue Paper: Detecting, Preventing, and
    Eliminating Unidentified Overpayments in the Social
    Security Administration’s Disability Programs                9
    (Limited Distribution) (A-09-02-22067),
    September 2003

    OIG, Controls Over Supplemental Security Income
    Replacement Checks (A-05-03-13010),                                                 9
    September 2003
    OIG, Follow-up on Prior Office of the Inspector
    General Prisoner Audits (A-01-02-12018), July 2003
                                                                 9

    GAO, Supplemental Security Income: SSA Could
    Enhance Its Ability to Detect Residency Violations           9
    (GAO-03-724), July 2003

    OIG, Old-Age, Survivors and Disability Insurance
    and Supplemental Security Income Payments to
    Deceased Beneficiaries and Recipients
                                                                 9
    (A-06-02-12012), October 2002

    GAO, Supplemental Security Income: Progress
    Made in Detecting and Recovering Overpayments,
    but Management Attention Should Continue
                                                                 9
    (GAO-02-849), September 2002

    OIG, Controls to Prevent Supplemental Security
    Income Payments to Recipients Living in Foreign                                     9
    Countries (A-01-02-12013), September 2002




1
 Copies of these reports can be found on our website at http://www.ssa.gov/oig and GAO’s website at
http://www.gao.gov.


Supplemental Security Income Overpayments (A-01-04-24022)                                           B-1
                                                          Fully Agreed/No
                      Report Title                                          Partially Agreed
                                                         Recommendations
  OIG, Review of Internal Controls for the
  Supplemental Security Income Immediate Payment                                   9
  Process (A-05-00-10045), September 2002

  GAO, SSA Disability: Enhanced Procedures and
  Guidance Could Improve Service and Reduce
  Overpayments to Concurrent Beneficiaries
                                                                9
  (GAO-02-802), September 2002

  OIG, Congressional Response Report: Integrity of
  the Supplemental Security Income Program                      9
  (A-01-02-22095), August 2002

  GAO Testimony – Supplemental Security Income:
  Status of Efforts to Improve Overpayment Detection            9
  and Recovery (GAO-02-962T), July 25, 2002

  OIG, Follow-up Review of SSA’s Implementation of
  Drug Addiction and Alcoholism Provisions of Public            9
  Law 104-121 (A-01-01-11029), December 2001

  OIG, Unresolved Death Alerts Over 120 Days Old
  (A-09-00-10001), August 2001
                                                                                   9

  OIG, Controls Over Recording Supplemental
  Security Income Overpayments (A-01-00-10005),                 9
  May 2001

  OIG, Review of the Social Security Administration’s
  Office of Child Support Enforcement Pilot Evaluation                             9
  (A-01-00-20006), May 2001

  OIG, Review of Controls Over Processing Income
  Alerts Which Impact Supplemental Security Income                                 9
  Payments (A-05-98-21002), September 2000

  OIG, Identification of Fugitives Receiving
  Supplemental Security Income Payments                         9
  (A-01-98-61013), August 2000

  OIG, Implementation of Drug Addiction and
  Alcoholism Provisions of Public Law 104-121                   9
  (A-01-98-61014), May 2000

  GAO, Supplemental Security Income: Incentive
  Payments Have Reduced Benefit Payments to                     9
  Prisoners (GAO/HEHS-00-2), November 1999

  GAO Testimony – Supplemental Security Income:
  Long-Standing Issues Require More Active
  Management and Program Oversight
                                                                9
  (GAO/T-HEHS-99-51), February 3, 1999




Supplemental Security Income Overpayments (A-01-04-24022)                                      B-2
                                                         Fully Agreed/No
                       Report Title                                             Partially Agreed
                                                        Recommendations
    GAO, Supplemental Security Income: Action
    Needed on Long-Standing Problems Affecting
    Program Integrity (GAO/HEHS-98-158),
                                                                                       9
    September 1998

    GAO, Supplemental Security Income: Opportunities
    Exist for Improving Payment Accuracy                        9
    (GAO/HEHS-98-75), March 1998

    OIG, Effectiveness of the Social Security
    Administration’s Procedures to Process Prisoner
    Information, Suspend Payments and Collect
                                                                9
    Overpayments (A-01-96-61083), June 19972

    GAO, Supplemental Security Income: Timely Data
    Could Prevent Millions in Overpayments to Nursing                                  9
    Home Residents (GAO/HEHS-97-62), June 1997

    GAO, Supplemental Security Income: Administrative
    and Program Savings Possible by Directly
    Accessing State Data (GAO/HEHS-96-163),
                                                                                       9
    August 1996

    TOTAL                                                       17                     9




2
 We reported in July 2003, Follow-up on Prior Office of the Inspector General Prisoner Audits
(A-01-02-12018), that SSA effectively implemented the recommendations in our June 1997 report.


Supplemental Security Income Overpayments (A-01-04-24022)                                          B-3
                                                                               Appendix C

Classification of Overpayments and Payment
Accuracy
In August 2003, the Office of Management and Budget (OMB) responded to a request
from the Social Security Administration (SSA) and the Office of the Inspector General to
provide additional guidance on the definition of erroneous payments. OMB classified
the payments into two groups—avoidable and unavoidable.

(1)     Avoidable: Payments that could be reduced through changes in administrative
        action. These payments should be reflected in SSA’s erroneous payment
        estimate.

(2)     Unavoidable: Payments resulting from legal or policy requirements. According to
        OMB, these payments should not be considered erroneous.

AVOIDABLE OVERPAYMENTS
SSA defines an overpayment as “…the total amount an individual received for any
period which exceeds the total amount which should have been paid for that period.”1
Certain overpayments in the Supplemental Security Income (SSI) program are
avoidable and may be reduced by the Agency.

According to SSA, the majority of SSI overpayments result from recipients’ failure to
report changes in income (such as wages) and resources (such as bank accounts).2 To
detect and verify unreported (or underreported) income and resources, SSA conducts
several computer data matches with Federal and State agencies. In 1998, SSA began
quarterly matches against wage data maintained by the Office of Child Support
Enforcement’s National Directory of New Hires (NDNH)—a comprehensive source of
unemployment insurance, wage, and new hire data.

In addition to the quarterly matches, SSA implemented online access to the NDNH
database for use in its field offices in calendar year 2001 to assist in verifying applicant
eligibility in the initial claims process. SSA estimated that use of the NDNH database
will result in approximately $200 million in overpayment preventions and recoveries per
year.3

1
    SSA, Program Operations Manual System, section GN 02201.001.
2
 SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal Year 2003,
page 38.
3
 GAO, Supplemental Security Income: Progress Made in Detecting and Recovering Overpayments, but
Management Attention Should Continue (GAO-02-849), September 2002.


Supplemental Security Income Overpayments (A-01-04-24022)                                        C-1
UNAVOIDABLE OVERPAYMENTS
Certain overpayments in the SSI program are unavoidable due to the design of the
program or existing legislation. For example, SSI payments are made on the first of the
month based on the expectation that recipients will remain eligible for those payments
throughout the entire month. However, changes may occur during the month causing
the recipients’ eligibility or payment amount to increase or decrease.

Presented below is a list of SSI overpayments classified as unavoidable according to
OMB.

      1. Payments issued after a recipient’s death.4

      2. Payments made based on existing legislation that are later determined to be
         overpayments. The following are two examples.

             Individuals found to be no longer disabled may appeal such a determination
              under the provisions of statutory benefit continuation. Under these
              provisions, individuals may elect for continuation of payments during the
              appeal.5

             Individuals found to be no longer eligible for reasons other than disability (for
              example, excess resources) are protected under the Goldberg-Kelly due
              process United States Supreme Court decision.6 Under these provisions,
              SSI payments may continue automatically if an appeal is filed within 10 days
              of receiving SSA’s written notice of the proposed action to reduce, suspend,
              or terminate SSI payments.

      3. Payments made incorrectly due to the design of the SSI program. For example,
         the law requires SSI payments to be made on the first day of the month based on
         a recipient’s expected income for the month. Increases or decreases in the
         recipient’s income may occur during the month, causing the recipient’s eligibility
         or payment amount to change.

      4. Payments despite medical ineligibility. For example, payments for which a
         recipient would not have been eligible had the law permitted retroactive
         ineligibility.



4
    Classified as unavoidable, except for fraud or misuse.
5
    Section 1631(a)(7)(A) of the Social Security Act, as amended (42 U.S.C. § 1383(a)(7)(A)).
6
    Goldberg v. Kelly, 397 U.S. 254 (1970).



Supplemental Security Income Overpayments (A-01-04-24022)                                       C-2
      5. Payments made in error, but not identified by SSA.7

      6. Payments made to a recipient who alleges nonreceipt of a payment, but who
         then cashes both the original and replacement check.8

SSI PAYMENT ACCURACY RATE

Each year, SSA reports a payment accuracy rate for the SSI program. To calculate this
payment accuracy rate, the Agency selects a sample of cases and reviews the
nonmedical factors affecting SSI eligibility. SSA’s payment accuracy rates reported for
the SSI program between Fiscal Years 1998 and 2002 are presented in the table
below.9

                                               SSI Payment Accuracy Rate
                                Fiscal
                                                (Excluding Unavoidable
                                 Year
                                                    Overpayments)10
                                 1998                   94.1 %
                                 1999                   94.9 %
                                 2000                   94.7 %
                                 2001                   93.3 %
                                 2002                   93.4 %




7
 We are currently conducting a review to quantify the amount of undetected overpayments in SSA’s
disability programs, Undetected Overpayments in the Social Security Administration’s Disability Programs
(A-01-04-24065). We expect to issue this report in Fiscal Year 2005.
8
    Classified as unavoidable, except for fraud or misuse.
9
 SSA, Supplemental Security Income Payment Accuracy (Stewardship) Reports for Fiscal Years 1998 to
2002.
10
  This accuracy rate represents the percent of SSI payments free of errors that were the fault of
recipients and/or SSA.


Supplemental Security Income Overpayments (A-01-04-24022)                                           C-3
                                                                                   Appendix D

Legislation Impacting SSI Eligibility
The Supplemental Security Income (SSI) program provides a minimum level of income
to financially needy individuals who are aged, blind or disabled. Program requirements
for SSI eligibility are complex and have been revised several times through legislation.
The table below presents several laws that have been passed since 1996 that impacted
SSI eligibility rules.

          Legislation                                           Description
Senior Citizens’ Right to Work     Considers individuals not to be disabled for SSI purposes if drug
Act of 1996 (Public Law No. 104-   addiction or alcoholism are contributing factors material to the
121, enacted March 29, 1996)       finding of disability (42 U.S.C. § 1382c(a)(3)).
Personal Responsibility and Work   Prohibits SSI payments to individuals for any month during which
Opportunity Act of 1996            they are fugitive felons, fleeing prosecution, or parole/probation
(Public Law No. 104-193,           violators (42 U.S.C. § 1382(e)).
enacted August 22, 1996)
                                   Revises the definition of disability for individuals under age 18.
                                   Specifically, children will be considered disabled if they have
                                   medically determinable impairments that result in “marked and
                                   severe functional limitations” (42 U.S.C. § 1382c(a)(3)).
                                   Prohibits SSI eligibility for individuals who are not United States
                                   citizens or nationals unless they are certain qualified aliens
                                   (8 U.S.C. § 1612).
                                   Limits the amount of SSI payments to institutionalized children
                                   under age 18 whose private health insurance companies are
                                   making payments to the institutions (42 U.S.C. § 1382(e)(1)(B)).
                                   Requires the Social Security Administration (SSA) to conduct
                                   continuing disability reviews: 1) every 3 years for SSI recipients
                                   under age 18 with the potential for medical improvement, and
                                   2) within 1 year of birth for recipients whose low birth weight is a
                                   contributing factor to the determination of disability
                                   (42 U.S.C. § 1382c(a)(3)(H)).
                                   Requires SSA to conduct redeterminations under adult medical
                                   standards for SSI recipients turning age 18
                                   (42 U.S.C. § 1382c(a)(3)(H)).
                                   Changes the effective date of an SSI application to the first day of
                                   the month following the date on which the application was filed or
                                   on which the individual becomes eligible (whichever is later)
                                   (42 U.S.C. § 1382(c)(7)).
Omnibus Consolidated               Modifies the list of aliens who may qualify for payments
Appropriations Act of 1997         (8 U.S.C. § 1641).
(Public Law No. 104-208,
enacted September 30, 1996)




Supplemental Security Income Overpayment (A-01-04-24022)                                                  D-1
           Legislation                                           Description
Depository Institutions Disaster    Extends eligibility for aliens receiving SSI payments as of
Relief Act of 1997                  August 22, 1996 until September 30, 1997 for those found
(Public Law No. 105-18,             ineligible under the new alien standards of Public Law No. 104-193
enacted June 12, 1997)              (8 U.S.C. § 1612(a)(2)(D)(i)).
Balanced Budget Act of 1997         Further modifies the list of aliens who may qualify for SSI
(Public Law No. 105-33, enacted     payments. In addition, extends eligibility for nonqualified aliens
August 5, 1997)                     receiving SSI payments as of August 22, 1996, until
                                    September 30, 1998 (8 U.S.C. § 1612(a)(2)(A) and
                                    8 U.S.C. § 1612(a)(2)(D)(i), respectively).
                                    Modifies provision of Public Law No. 104-193 to permit SSA to
                                    schedule continuing disability reviews for low birth weight children
                                    after 1 year of birth if medical improvement is not expected
                                    (42 U.S.C. § 1382c(a)(3)(H)(iv)).
                                    Modifies provision of Public Law No. 104-193 to provide SSA the
                                    authority to conduct redeterminations of disabled SSI recipients
                                    turning age 18 more than 1 year after the recipient turns age 18
                                    (42 U.S.C. § 1382c(a)(3)(H)(iii)).
                                    Amends Public Law No. 104-108 to add an additional exception to
                                    sponsor-to-alien deeming rules (42 U.S.C. § 608).
Non-Citizen Benefit Clarification   Extends permanent eligibility to individuals who are not
and Other Technical                 qualified aliens but who were receiving SSI payments on
Amendments Act of 1998              August 22, 1996 (8 U.S.C. § 1611(b)).
(Public Law No. 105-306,
enacted October 28, 1998)
Foster Care Independence Act        Authorizes SSA to impose administrative sanctions—nonpayment
of 1999 (Public Law No. 106-169,    of SSI funds for 6, 12, or 24 months—for individuals who make
enacted December 14, 1999)          false or misleading statements or misrepresent material facts for
                                    use in determining eligibility for payments
                                    (42 U.S.C. § 1320a-8a).
                                    Provides a penalty under the SSI program for the disposal of
                                    resources at less than fair market value. The penalty is loss of SSI
                                    payments for a maximum period of 36 months
                                    (42 U.S.C. § 1382b(c)).
                                    Considers assets held in trusts as countable resources for SSI
                                    purposes (42 U.S.C. § 1382b).
Ticket to Work and Work             Establishes a Ticket to Work and Self-Sufficiency program to
Incentives Improvement Act of       provide disabled SSI recipients the opportunity to obtain vocational
1999 (Public Law No. 106-170,       rehabilitation services, employment services, or other support
enacted December 17, 1999)          services from an employment network (42 U.S.C. § 1320b-19).
                                    Prohibits the initiation of a continuing disability review while an SSI
                                    recipient is using a “ticket” under the Ticket to Work program
                                    (42 U.S.C. § 1320b-19(i)).
Victims of Trafficking and          Further modifies the list of aliens who may qualify for SSI payments
Violence Protection Act of 2000     (22 U.S.C. § 7105).
(Public Law No. 106-386,
enacted October 28, 2000)
Social Security Protection Act of   Modifies SSI fugitive felon provisions (42 U.S.C. 1382(e)).




Supplemental Security Income Overpayment (A-01-04-24022)                                                 D-2
          Legislation                                       Description
2004 (Public Law No. 108-203,   Excludes interest and dividend income earned on countable
enacted March 2, 2004)          resources from the determination of an individual’s income. In
                                addition, modifies the calculation of infrequent and irregular income
                                from a monthly basis to a quarterly basis (42 U.S.C. 1382a(b)(3)).




Supplemental Security Income Overpayment (A-01-04-24022)                                          D-3
                                                                                      Appendix E

Data Matches to Identify and Prevent
Overpayments
The Supplemental Security Income (SSI) program provides a minimum level of income
to financially needy individuals who are aged, blind or disabled. Since individuals’
income, resources and living arrangements may change often, the Social Security
Administration (SSA) is required to frequently reassess and verify recipients’ eligibility
and payment amounts. The table below presents some of the computer matches the
Agency performs to identify and prevent overpayments in the SSI program.

                Source                                     Description of Match

        Federal, State and Local        Identifies and suspends SSI payments to individuals who
        Correctional Institutions       are in public institutions throughout a full calendar month.

    Department of Health and Human      Allows SSA to verify initial or continuing eligibility for SSI
      Services, Administration for      payments through a comprehensive source of
     Children and Families, Office of   unemployment insurance, wage, and new hire data.
      Child Support Enforcement


      State and Federal Agencies        Detects unreported deaths by matching State and Federal
                                        agency death records against SSI records.


    Department of Defense, Defense      Enables SSA to verify military retirement or survivor
        Manpower Data Center            payments to determine SSI eligibility and correct payment
                                        amounts.


    Office of Personnel Management      Identifies SSI recipients with unreported income from Civil
                                        Service pensions.

       Railroad Retirement Board        Allows SSA to determine whether SSI payments are being
                                        paid correctly based on Combined Health Insurance Check
                                        Writing data.

        Veterans Administration         Allows SSA to determine correct SSI payments based on
                                        amount of Veterans benefits.

    Department of Treasury, Internal    Enables SSA to obtain current mailing addresses for prior
           Revenue Service              SSI recipients with outstanding overpayments. Also,
                                        detects unreported resources and income (other than
                                        wages) of SSI recipients.

          Department of Labor           Detects unearned income of SSI recipients.




Supplemental Security Income Overpayments (A-01-04-24022)                                                E-1
              Source                                 Description of Match

      Department of Treasury and   Enables SSA to verify eligibility for SSI payments based on
        Bureau of Public Debt      unreported savings bonds.

       Centers for Medicare and    Identifies SSI recipients who enter or are discharged from
          Medicaid Services        skilled nursing home facilities.

       State Health and Income     Discloses State Medicaid data on accounts with no activity
        Maintenance Agencies       for 1 year or more to SSA to determine continuing SSI
                                   eligibility.

      Individual Law Enforcement   Identifies fugitive felons and parole or probation violators
               Agencies            receiving SSI payments.

                                   Identifies SSI recipients with earned income by comparing
              Employers            annual earnings as reported by recipients’ employers to the
                                   amount recorded on the Supplemental Security Record.




Supplemental Security Income Overpayments (A-01-04-24022)                                         E-2
                                                                                      Appendix F

Legislation Impacting SSI Overpayments
Several laws have been passed authorizing the Social Security Administration (SSA) to
use new overpayment collection tools to improve the recovery of Supplemental Security
Income (SSI) overpayments. The following table describes these collection tools as
well as the time period between the year the Agency was authorized to use the tool and
the year the tool was actually implemented.

                              SSI Overpayment Collection Activities
            Legislation                   Collection Tool                Effective         Implemented
    Deficit Reduction Act of 1984        Tax Refund Offset
    (Public Law No. 98-369,                                              July 1984         January 1998
    enacted July 18, 1984)              (31 U.S.C. § 3720A)

    Debt Collection Improvement         Administrative Wage
    Act of 1996 (Public Law                Garnishment                   April 1996          Planned1
    No. 104-134, enacted
    April 26, 1996)                     (31 U.S.C. § 3720D)

    Non-Citizen Benefit
    Clarification and Other
    Technical Amendments             Cross-Program Recovery
                                                                       October 1998       February 2002
    Act of 1998 (Public Law           (42 U.S.C. § 1320b-17)
    No.105-306, enacted
    October 28, 1998)
                                        Administrative Offset
                                                                      December 1999       February 2002
                                         (31 U.S.C. § 3716)
    Foster Care Independence
                                        Report Delinquent
    Act of 1999 (Public Law
                                      Overpayments to Credit
    No. 106-169, enacted                                              December 1999       February 2002
                                            Bureaus
    December 14, 1999)
                                        (31 U.S.C. § 3711(e))
                                            Levy Interest
                                                                      December 1999         Not in use2
                                         (31 U.S.C. § 3717)




1
 SSA issued final rules on December 23, 2003 in the Federal Register establishing new regulations to
collect delinquent SSI overpayments by garnishing the wages of public and private sector employees.
These regulations, effective January 22, 2004, will allow SSA to garnish up to 15 percent of employees’
wages until overpayments are fully recovered.
2
  Although this collection tool is currently not in use, SSA plans to evaluate and possibly implement this
tool in the future.




Supplemental Security Income Overpayments (A-01-04-24022)                                                 F-1
                           SSI Overpayment Collection Activities
           Legislation                Collection Tool              Effective     Implemented
                                Private Collection Agencies
                                     (Treasury’s Cross
                                    Servicing Program)           December 1999    Not in Use3
    Foster Care Independence        (31 U.S.C. § 3718)
    Act of 1999
    (Public Law No. 106-169,       Federal Salary Offset
    enacted                                                      December 1999    Not in Use3
                                     (5 U.S.C. § 5514)
    December 14, 1999)
    (continued)                    Lump-Sum Recovery
                                                                 December 2000   December 2000
                               (42 U.S.C. § 1383(b)(1)(B)(ii))
                               Representative Payee Liability
                                                                 December 2000   December 2000
                                 (42 U.S.C. § 1383(b)(2))




3
    Id.



Supplemental Security Income Overpayments (A-01-04-24022)                                       F-2
                                                            Appendix G

Agency Comments




Supplemental Security Income Overpayments (A-01-04-24022)
                                           SOCIAL SECURITY

MEMORANDUM                                                                        33189-24-1108


Date:      April 05, 2004                                                         Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Overpayments”
           (A-01-04-24022)--INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we can be of further assistance. You may contact Candace Skurnik, Director
           of the Audit Management and Liaison Staff at extension 54636. Staff questions may be referred to
           Trudy Williams at extension 50380.

           Attachment:
           SSA Response




           Supplemental Security Income Overpayments (A-01-04-24022)                                    G-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS” (A-01-04-24022)

Thank you for the opportunity to review and comment on the subject draft report. We appreciate
the report's acknowledgment of the strides SSA has made over "the past several years." SSA has
been fully engaged in implementing numerous debt collection and cash management
improvements since the implementation of tax refund offset in 1992. The Agency has developed
and implemented 11 separate improvements to its debt management and cash management
program since 1992. Currently, SSA is developing functional requirements for administrative
wage garnishment (AWG) and draft regulations for Federal salary offset. We certainly agree
with the recommendation to continue in our efforts. As our past performance demonstrates, and
as we have stated many times in response to Congressional hearings and in other forums, we
fully intend to implement all debt collection authorities. We have also noted some additional
comments.

Recommendation

To assist SSA in achieving its strategic objective of improving debt management, OIG
recommends that SSA continue to evaluate the recovery tools that have not yet been
implemented, but which were authorized through legislation (such as Federal salary offset,
charging interest, and using private collection agencies).

SSA Comment

We agree. We will continue to work to evaluate and prioritize the implementation schedule in
the most cost-effective manner.



[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




Supplemental Security Income Overpayments (A-01-04-24022)                                    G-2
                                                                       Appendix H

OIG Contact and Staff Acknowledgments
OIG Contact

   Judith Oliveira, Director, (617) 565-1765

Acknowledgments

In addition to the name above:

   Jeffrey Brown, Auditor

   Melinda Tabicas, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-04-24022.




Supplemental Security Income Overpayments (A-01-04-24022)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
